     EXECUTIVE SUMMARY

UNITED STATES MARSHALS SERVICE
    ADMINISTRATION OF THE
  WITNESS SECURITY PROGRAM

       U.S. Department of Justice
     Office of the Inspector General
              Audit Division
                   UNITED STATES MARSHALS SERVICE
           ADMINISTRATION OF THE WITNESS SECURITY PROGRAM

                               EXECUTIVE SUMMARY∗

      This Office of the Inspector General (OIG) audit examines the United
States Marshals Service’s (USMS) administration of the Witness Security
Program (WITSEC Program). The USMS is one of three Department of
Justice components that have prominent roles in the WITSEC Program. The
Criminal Division’s Office of Enforcement Operations (OEO) authorizes the
admission into the program of witnesses whose lives are in danger as a
result of their testimony against drug traffickers, terrorists, organized crime
members, and other major criminals. The Federal Bureau of Prisons (BOP)
maintains custody of incarcerated witnesses. The USMS provides for the
security, health, and safety of non-incarcerated program participants. Since
inception of the WITSEC Program in 1970, the USMS has protected,
relocated, and given new identities to more than 7,500 witnesses and more
than 9,600 family members or associates.1 The USMS devoted $59.7 million
and 173 staff positions to the WITSEC Program in fiscal year (FY) 2003.

      Given the extensive and crucial role of the USMS in the WITSEC
Program, we examined matters relating to the safety and security of
witnesses, the assimilation of relocated witnesses, the USMS financial
practices regarding WITSEC, the management information system used by
the WITSEC Program, and the USMS management oversight of the WITSEC
Program.

      The objectives of our audit were to evaluate the: 1) USMS plans and
strategies to achieve the WITSEC Program’s stated security objectives; 2)
controls for witness safety; and 3) internal controls for financial activities,
including payments to protected witnesses and their families. In addition,
we identified certain issues from our 1993 audit report on the USMS WITSEC
Program that required follow-up.2


       ∗
        The full 139 page report is not being publicly released because it contains law
enforcement sensitive information relating to the Witness Security Program.
       1
         The Comprehensive Crime Control Act of 1984 authorized “the relocation and other
protection” of witnesses, their immediate family, and other close associates of the witness
who may also be in danger because of the witness’s testimony.
       2
         United States Marshals Service’s Responsibilities Under the Witness Security
Program, 94-7, November 1993. Two recommendations from this report are still open, one
relating to management controls over financial transactions and another relating to
weaknesses in the management information system for the WITSEC Program.


                                            -i-
Audit Results

Safety and Security of Witnesses

       Our audit disclosed one breach of security attributable to USMS error
that appeared to be an isolated incident and did not result in harm to a
program participant.3 Specifically, two unrelated program participants were
relocated to the same city where they encountered and recognized each
other at a convenience store. Although no harm came to either individual as
a result of the incident, the USMS had to relocate one of them elsewhere.
Our review of the case file determined that the USMS could have prevented
this security breach by more thoroughly reviewing the backgrounds of the
two individuals in question to ensure they were not relocated to the same
city. In addition to this incident, we received other allegations of security
breaches that the complainants blamed on the USMS. However, we found
the condition of the relevant case files too poor for us either to confirm or
refute the allegations.

       Our audit identified at least one opportunity to enhance security, and
several issues that, if not addressed, could adversely affect witness security.
The opportunity for enhancement of security involves the use of
communications equipment as an alternative to in-person meetings with
prosecutors or case agents outside a participant’s relocation area. The
necessary equipment is in place in some locations and the USMS has plans
to utilize it at additional locations. However, our audit found that to date
such equipment has not been used extensively. If the physical presence of a
witness is not required in the danger area, the use of this equipment would
be an effective way to protect the witnesses and avert the travel and
security costs associated with transporting them back to their danger area or
to a neutral site.

      The issues that the USMS needs to address because of their potential
adverse effect on witness security are varied. The following discussion
provides a brief synopsis of them.

      WITSEC Program Staff Levels: We are concerned that the staffing
of the WITSEC Program is not commensurate with the workload. The
number of operational and administrative positions authorized for the
WITSEC Program has declined steadily, while the population of protected
witnesses has increased. Between FY 1995 and FY 2003, WITSEC


       3
         We did identify other instances of security breaches; however, the incidents
resulted from inappropriate actions on the part of program participants and not errors by
the USMS.


                                           - ii -
operational positions declined from 175 to 135, and administrative positions
declined from 49 to 38, but the witness population increased from 15,229 to
17,108. If the staffing level does not keep pace with the workload, the
quality of services provided to program participants could decline
unacceptably.

       Duties of WITSEC Inspectors: In addition to the declining WITSEC
staff levels, we noted that USMS WITSEC personnel work a considerable
amount of time on non-WITSEC protective details. Since 2001, there has
been a significant increase in the work hours of WITSEC personnel devoted
to assignments where they guard government officials not associated with
the WITSEC Program. According to USMS data, WITSEC personnel charged
25,608 hours in FY 2001 and 49,577 hours in FY 2003 to non-WITSEC
protective assignments. While these details are an indication of the high
level of competence of WITSEC inspectors in the field of personal protection,
they are also a drain on the resources of the WITSEC Program.

       Secrecy Agreements: USMS employees, employees of other federal
agencies, and contractors who work in the WITSEC Program are required to
execute secrecy agreements when they enter on duty and, again, when they
cease employment in the program. In both instances, a designated USMS
official is supposed to brief/debrief the employee or contractor and co-sign
the secrecy agreement. We found that a significant number of the
agreements had not been co-signed. For example, at the outset of our
audit, we determined that 68 percent of the secrecy agreements signed by
full-time USMS WITSEC employees had not been duly co-signed. In the
absence of the required co-signatures, the USMS has no documented
assurance that WITSEC employees and contractors were duly briefed and
debriefed. The failure to obtain proper documentation of secrecy briefings
and debriefings could limit the ability of the USMS to pursue any recourse if
an individual improperly discloses sensitive WITSEC information.

      Preliminary Interviews with Prospective Witnesses: The USMS
conducts preliminary interviews of prospective witnesses. During the
preliminary interview, the USMS explains the WITSEC Program to the
prospective witnesses and collects necessary information from them. Based
on the results, the USMS formulates a recommendation, positive or
negative, regarding the admission of the candidate to the WITSEC Program
and forwards the recommendation to the Criminal Division’s OEO.

     According to USMS policy, preliminary interviews are generally
supposed to be completed within a specified number of days after receipt by
the USMS of the request for an interview. However, we found that the
USMS frequently takes significantly longer to complete such interviews. Our


                                    - iii -
analysis of USMS data disclosed that in FY 2003 the average elapsed time
was nearly twice the prescribed time. The request for a preliminary
interview is based on the recommendation of an investigative agency that
has determined the interviewee’s life might be in jeopardy because of
prospective testimony. For this reason, we believe the USMS should ensure
that preliminary interviews occur within prescribed time frames.

       Our audit did not find evidence of actual harm resulting from the
failure to complete preliminary interviews in a timely manner, but this does
not mean that there are no adverse consequences when preliminary
interviews are not completed in a timely manner. Until the preliminary
interview has been completed, the potential witness remains the
responsibility of the sponsoring investigative agency. The sponsoring
agency also incurs the associated financial and personnel burdens of
protecting these individuals.

      Similarly, the failure to complete timely preliminary interviews of
prisoner witnesses presents problems. The BOP cannot maintain custody of
inmates past their release dates and the USMS cannot take released
prisoners under protection until the OEO grants its approval. In exigent
circumstances, the OEO will grant emergency approval. Otherwise, the
sponsoring investigative agency will be responsible for protection of the
released prisoner witness.

       Consequently, the preliminary interview is a critical step in the
admission of individuals to WITSEC protection and the USMS should ensure
that it is completed expeditiously.

      Morale of WITSEC Program Staff: We interviewed WITSEC
inspectors at various sites around the country about a number of job-related
matters. Based on the results of those interviews, we have serious concerns
about the morale of WITSEC staff. In our judgment, the USMS needs to
address the issues raised by WITSEC staff to prevent those issues from
adversely affecting the WITSEC Program. Most prominent among them is
the journeyman grade level of WITSEC inspectors. These inspectors are at
the GS-12 level, while specialists in other USMS programs are at the GS-13
level. To advance to higher grades, inspectors seek promotions outside the
WITSEC Program, which results in WITSEC frequently losing experienced
personnel and the continuity that is necessary in a program like WITSEC.
According to USMS data, 11 inspectors (nearly 10 percent of total
inspectors) left the WITSEC Program for promotions to GS-13 positions
elsewhere in the USMS between September 2002 and May 2003. WITSEC
management has recognized the problem and proposed upgrading WITSEC



                                    - iv -
inspectors, but the necessary funding (over $900,000 annually by our
estimate) has not been allocated to the program.

Assimilation of Relocated Witnesses

       One of the objectives of the WITSEC Program is to help program
participants become self-sufficient in their relocation area. Among other
things, this requires assisting them to secure employment. The USMS relies
mainly on the efforts of local WITSEC inspectors who are not necessarily
skilled in employment counseling and who perform a wide range of other
WITSEC duties. We believe the need exists for an employment specialist at
USMS headquarters to assist the local inspectors who work directly with the
witnesses and their dependents. Without effective assistance in obtaining
employment, there is a risk that program participants will remain on
subsistence funding longer than necessary.

      Foreign-born witnesses require immigration documents from the
Immigration and Customs Enforcement (ICE) agency of the Department of
Homeland Security before they may engage in certain activities. However,
the USMS has experienced significant problems in obtaining documentation
for WITSEC program participants. We believe the USMS should pursue a
formal Memorandum of Understanding (MOU) with the ICE establishing a
procedure that ensures the timely provision of immigration-related
documents to foreign-born protected witnesses and their dependents. The
MOU should also address other matters of concern, such as assurances that
ICE employees who process WITSEC-related documents will execute a
Secrecy Agreement. The absence of an MOU increases the risk that
breakdowns will occur in providing necessary services to foreign-born
program participants.

Financial Practices

      We found numerous weaknesses with financial practices in the WITSEC
Program. For example, our audit disclosed that WITSEC inspectors
frequently disburse funds prior to obtaining authorization; we found
disbursements of as much as $10,000 that were made prior to authorization.
We also found that the documentation of transactions is often incomplete or
erroneous, and WITSEC inspectors do not routinely reconcile cash advances
to supporting documentation within the prescribed time. In addition,
WITSEC management officials have not been performing the periodic cash
counts required by USMS policy. We previously reported (in our November
1993 report) on weaknesses in the USMS financial management of the
WITSEC Program and our current audit found that problems continue to



                                   -v-
exist. If these weaknesses are not corrected the potential exists for funds to
be lost or misappropriated.

Management Information System

       Our 1993 audit report also identified inadequacies in the management
information system used by the USMS WITSEC Program. Although we found
that some improvements have been made since 1993, our current audit
determined that the management information system continues to be
inadequate at least in its case management component, the design of which
dates from the early 1990’s. We made numerous requests for data that the
USMS either could not provide or else could provide only from spreadsheets
maintained manually by individual employees. For example, the WITSEC
management information system could not provide reliable data about the
number of: candidates who received preliminary interviews in a given time
period; witnesses approved for admission to the program who were picked
up within the prescribed timeframe; foreign-born program participants and
their ethnic background and primary language; program participants holding
S visas;4 USMS actions initiated and completed to obtain documentation for
program participants; witness productions in the danger area and neutral-
site visits with case agents and prosecutors; grievances filed by program
participants; and criminal history checks each month over a given
timeframe. The WITSEC management information system was also unable
to provide us reliable data about the deaths of program participants.
Considering these shortcomings of the system, WITSEC management does
not have the necessary information available to manage the program
properly; without current, accurate, and complete information, managers
cannot readily detect problems and institute corrective action in a timely
fashion.

Management Oversight

      The USMS needs to improve management oversight of the WITSEC
Program. Current USMS policy calls for quarterly inspections of field offices.
However, we found that USMS personnel did not adhere to this policy. As
part of our audit, we performed work at 15 WITSEC offices and found that
the supervisory inspection of those offices had been sporadic. None of them
received regular quarterly inspections. We also found that USMS officials are
not performing unannounced counts of the cash advances held by WITSEC



      4
        The S Visa is a non-immigrant visa authorized by the Violent Crime Control and
Law Enforcement Act of 1994. An S Visa may be granted to aliens who are witnesses or
informants in certain criminal or terrorist cases.


                                          - vi -
inspectors. Unless corrected, these lapses of oversight could permit
operational and financial irregularities to occur.

Survey of Program Participants

       In conjunction with our audit, the USMS judgmentally selected
300 WITSEC participants and sent them a questionnaire asking their views
on the WITSEC Program.5 Although this was not a scientific sample and we
cannot project the results to the universe of WITSEC participants, it is
important to note that the respondents generally expressed a high degree of
satisfaction. In response to the principal questions, 153 of 168 respondents
stated that adequate security measures had been taken to protect them and
their families; 112 respondents replied “no” to the question, “Have you or
your family experienced problems under this Program which could have been
avoided;” 154 respondents agreed that WITSEC is a worthwhile program;
and 133 respondents replied affirmatively to the question, “If, when you
entered the program, you had your present knowledge about it, would you
still have entered?”

Recommendations

     Based on our findings, we formulated 21 recommendations to improve
the USMS WITSEC Program. For example, we recommend that the USMS:

       •   Install and utilize communications equipment at additional sites to
           reduce the travel and in-person meetings required of program
           participants;

       •   Address the morale issues among WITSEC employees, especially
           the grade level of WITSEC inspectors;

       •   Ensure that the secrecy agreements for USMS employees,
           employees of other agencies, and contractors who work in WITSEC
           are duly witnessed by USMS representatives;

       •   Enhance the employment assistance provided to WITSEC Program
           participants;

       •   Strengthen the WITSEC Program’s financial management through
           such action as ensuring that inspectors obtain necessary approval in

       5
          The USMS developed the questionnaire, selected the survey participants, and
tabulated the results. The OIG auditors suggested some modifications to the questionnaire
in the interest of greater specificity and the USMS concurred. The results of the survey may
be found in Appendix II.


                                          - vii -
         advance of the disbursement of funds and promptly reconcile cash
         advances to supporting documentation; and

     •   Improve the management oversight of the WITSEC Program
         through ensuring the performance of quarterly inspections of field
         offices and requiring that periodic cash counts are performed by
         field staff.

     The details of our work are discussed in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are contained in Appendix I.




                                   - viii -
